                   VJC
     ...." S1ll.      IS.
 ",+'"'                     ".,.,                                                                               Office of Inspector General
{'        ~                            DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Audit Services



\~r-
 ~~"'..a~                                                                                                       Region VII
                                                                                                                60 I East 12'h Street
                                    July 17,2009                                                                Room 0429
                                                                                                                Kansas City, Missouri 64106

                                Report Number: A-07-09-03119

                                Mr. Ronald J. Levy
                                Director
                                Missouri Department of Social Services
                                Broadway State Office Building
                                P.O. Box 1527
                                Jefferson City, Missouri 65102-1527

                                Dear Mr. Levy:

                                Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                                General (OIG), final report entitled "Review of the Missouri Department of Social Services
                                Claim for Title IV-E Training Costs for Salaries and Benefits for Initial Inservice Training for
                                July 1,2002, Through June 30, 2006." We will forward a copy of this report to the HHS action
                                official noted on the following page for review and any action deemed necessary.

                                The HHS action official will make final determination as to actions taken on all matters reported.
                                We request that you respond to this official within 30 days from the date of this letter. Your
                                response should present any comments or additional information that you believe may have a
                                bearing on the final determination.

                                Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
                                available to the public to the extent that information in the report is not subject to exemptions in
                                the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                               If you have any questions or comments about this report, please do not hesitate to call me at
                               (816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
                               through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-09-03119 in
                               all correspondence.

                                                                               Sincerely,


                                                                             £J~9~

                                                                       ~atrick J. Cogley
                                                                              Regional Inspector General
                                                                               for Audit Services

                               Enclosure
Page 2 – Mr. Ronald J. Levy


Direct Reply to ACF Action Official:

Ms. Nancy Long
Acting Regional Administrator, Region VII
Administration for Children and Families
601 East 12th Street, Room 276
Kansas City, Missouri 64106-2808
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


    REVIEW OF THE MISSOURI
DEPARTMENT OF SOCIAL SERVICES
 CLAIM FOR TITLE IV-E TRAINING
    COSTS FOR SALARIES AND
BENEFITS FOR INITIAL INSERVICE
   TRAINING FOR JULY 1, 2002,
    THROUGH JUNE 30, 2006




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-07-09-03119
                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act, as amended, authorizes Federal funds for States to provide
foster care and adoption assistance to children under an approved State plan. At the Federal
level, the Administration for Children and Families (ACF) administers the program; in Missouri,
the Department of Social Services (the State agency) administers the program. Title IV-E
provides Federal financial participation (FFP) at a 50-percent rate for administrative
expenditures and at an enhanced 75-percent rate for certain training expenditures.

Federal regulations specify that training expenditures must be included in the approved State
training plan to be claimed at the enhanced 75-percent FFP rate. Also, pursuant to Federal
regulations, States may receive reimbursement at the enhanced 75-percent FFP rate for initial
inservice training.

According to the approved State training plan, the initial inservice training for new employees
occurs during the first three months of employment, and combines classroom training and on-
the-job training (OJT). The classroom training consists of 129 hours of child welfare practice
training that provides practice, skills, and systems training to new employees. Reduced
caseloads are recommended during this time.

The State agency claimed $6,383,791 ($4,787,843 Federal share) in Title IV-E training costs for
salaries and benefits for initial inservice training at the enhanced 75-percent FFP rate from
July 1, 2002, through June 30, 2006.

OBJECTIVE

Our objective was to determine whether the Title IV-E training costs for salaries and benefits
claimed by the State agency for initial inservice training at the enhanced 75-percent FFP rate
from July 1, 2002, through June 30, 2006, were allowable pursuant to Federal regulations and the
approved State training plan.

SUMMARY OF FINDINGS

Of the $4,787,843 (Federal share) in Title IV-E training costs that the State agency claimed for
salaries and benefits for initial inservice training for the period July 1, 2002, through June 30,
2006, $741,872 (Federal share) was unallowable. The State agency overstated Title IV-E
training costs by the $741,872 (Federal share) because it did not follow Federal regulations and
the approved State training plan. Specifically, the State agency claimed:

   •   $495,525 (Federal share) in unallowable salary and benefit costs for initial inservice
       training whose timeframes exceeded the allowable three-month period for Federal
       reimbursement pursuant to the State training plan. The $495,525 (Federal share)
       represents the difference between the enhanced 75-percent FFP rate that the State agency
       claimed and the administrative (50-percent) FFP rate permitted by Federal regulations.



                                                 i
   •   $141,320 (Federal share) in unallowable costs claimed related to an initial inservice
       training course that did not meet the definition of an allowable administrative activity
       pursuant to Federal regulations.

   •   $98,677 (Federal share) in unallowable costs claimed for initial inservice training courses
       that, contrary to Federal regulations, either were not taken or not completed by 365 (out
       of 575) employees. The $98,677 (Federal share) represents the difference between the
       enhanced 75-percent FFP rate that the State agency claimed and the administrative (50-
       percent) FFP rate permitted by Federal regulations.

   •   $6,350 (Federal share) in unallowable indirect costs that did not qualify for Federal
       reimbursement. The $6,350 (Federal share) represents the difference between the
       enhanced 75-percent FFP rate that the State agency claimed and the administrative (50-
       percent) FFP rate permitted by Federal regulations.

In addition, the State agency claimed $814,330 (Federal share) in potentially unallowable costs
related to OJT that was required for all new employees, but for which the State agency could not
provide documentation that the training occurred. Therefore, these costs may not have been
allowable for Federal reimbursement at the enhanced 75-percent FFP rate.

We accepted the remaining $3,231,641 (Federal share) in Title IV-E training costs for salaries
and benefits, including associated indirect costs.

A table summarizing these findings is attached as Appendix A.

The State agency claimed these unallowable and potentially unallowable costs because it did not
have adequate internal controls to ensure that it claimed only allowable Title IV-E training costs
pursuant to Federal regulations and the approved State training plan.

RECOMMENDATIONS

We recommend that the State agency:

   •   adjust its next “Title IV-E Foster Care and Adoption Assistance Financial Report” to
       reduce Federal reimbursement claimed for Title IV-E training by $741,872 (Federal
       share);

   •   work with ACF to review the $814,330 (Federal share) in enhanced payments for OJT
       costs and assess whether documentation provided by the State agency is sufficient to
       support the allowability of these claimed costs at the enhanced 75-percent FFP rate; and

   •   strengthen policies and procedures to ensure that it claims Federal reimbursement for
       Title IV-E training pursuant to Federal requirements and the approved State training plan.




                                                ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings and with
two of our three recommendations. For the costs that we questioned, the State agency said that
these costs were allowable because the: (1) $495,525 (Federal share) in costs for salaries and
benefits claimed for initial inservice training were within the State agency’s interpretation of the
timeframes indicated in the State training plan, (2) $141,320 (Federal share) in costs for salaries
and benefits claimed for an initial inservice training course were part “. . . an overall legitimate
training program” whose other training courses were allowable, (3) $98,677 (Federal share) in
salaries and benefits claimed for initial inservice training courses were completed by “virtually
all” individuals in question, and (4) $6,350 (Federal share) in costs claimed for indirect costs
were for training.

Regarding the $814,330 (Federal share) in potentially unallowable costs that we have set aside
for ACF adjudication because the State agency could not provide documentation that the training
occurred, the State agency agreed with our recommendation that it work with ACF to resolve
these costs. However, the State agency disagreed with the associated finding itself. The State
agency said that it had made relevant information available to us during our fieldwork, and added
that it had appropriately provided OJT “. . . to workers who had been away from the agency for
extended periods and therefore needed training. . . .”

The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s written comments regarding the costs that we questioned, we
maintain that our findings and recommendations are valid. For the costs that we questioned, we
believe that these costs were unallowable because: (1) the $495,525 (Federal share) in salaries
and benefits claimed for initial inservice training did not conform to the timeframes indicated in
the State training plans, (2) the $141,320 (Federal share) in salaries and benefits claimed for an
initial inservice training course contained unallowable administrative activity pursuant to Federal
regulations, (3) the $98,677 (Federal share) in costs claimed for salaries and benefits associated
with initial inservice courses were not supported by any documentation bolstering the State
agency’s statement that “virtually all” individuals had completed the training, and (4) the $6,350
(Federal share) in indirect costs were not claimed pursuant to Federal regulations.

Regarding the $814,330 (Federal share) in potentially unallowable costs that we have set aside
for ACF adjudication, the shortcomings in documentation that formed the basis for this finding—
to include documentation supporting that OJT occurred—were not addressed in the State
agency’s written comments on our draft report. Therefore, we maintain that the $814,330
(Federal share) be set aside for ACF adjudication.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Title IV-E Program ...............................................................................................1
              Federal Reimbursement Requirements .................................................................1
              Missouri Department of Social Services Costs Claimed for
                 Initial Inservice Training..................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FEDERAL REQUIREMENTS.........................................................................................4

          STATE AGENCY REQUIREMENTS.............................................................................5

          UNALLOWABLE SALARIES AND BENEFITS CLAIMED .......................................5
              Initial Inservice Training That Exceeded the Allowable
                Three Months’ Duration ....................................................................................5
              Training Not Permitted for Federal Reimbursement ............................................6
              Training Not Taken or Not Completed.................................................................6
              Unallowable Indirect Costs...................................................................................7

          POTENTIALLY UNALLOWABLE SALARIES AND BENEFITS CLAIMED...........8

          RECOMMENDATIONS..................................................................................................9

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
            RESPONSE..............................……………………………………………………....9
               Initial Inservice Training That Exceeded the Allowable
                 Three Months’ Duration ....................................................................................9
               Training Not Permitted for Federal Reimbursement ..........................................10
               Training Not Taken or Not Completed...............................................................10
               Unallowable Indirect Costs.................................................................................11
               Potentially Unallowable Salaries and Benefits Claimed ....................................12




                                                                    iv
APPENDIXES

    A – SUMMARY OF AUDIT RESULTS

    B – SAMPLING DESIGN, METHODOLOGY, AND ESTIMATES

    C – STATE AGENCY COMMENTS




                                v
                                       INTRODUCTION

BACKGROUND

Title IV-E Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care and adoption assistance to children under an approved State plan. At the
Federal level, the Administration for Children and Families (ACF) administers the program; in
Missouri, the Department of Social Services (the State agency) administers the program.

Federal funds are available to States for the following Title IV-E administrative and training
costs:

   •     Administrative costs include staff activities such as case management and supervision
         of children placed in foster care or considered to be Title IV-E candidates, preparation
         for and participation in court hearings, placements of children, recruitment of foster
         parents, and licensing of foster homes and institutions. The Federal funding rate for
         administrative costs allocable to the Title IV-E program is 50 percent.

   •     Training costs include the training of personnel employed or preparing for employment
         by the State or local agency administering the State training plan and the training of
         current or prospective foster care or adoptive parents, as well as personnel of childcare
         institutions. Certain State training costs qualify for an enhanced 75-percent Federal
         funding rate.

Pursuant to Federal regulations (45 CFR part 95, subpart E), States must allocate costs to the
Title IV-E program in accordance with a public assistance cost allocation plan approved by the
Department of Health and Human Services, Division of Cost Allocation (DCA), after ACF
reviews and comments on the fairness of the cost allocation methodologies. Federal regulations
(45 CFR §§ 74.27and 92.22) also require that costs be allocated according to the accounting
principles and standards in Office of Management and Budget (OMB) Circular A-87, “Cost
Principles for State, Local, and Indian Tribal Governments.” The circular requires at Section C
that costs be allocated to programs based on the relative benefits received and be adequately
documented. ACF’s “Child Welfare Policy Manual” states that training costs must be allocated
to benefiting programs and describes allowable administrative costs.

States submit the “Title IV-E Foster Care and Adoption Assistance Financial Report”
(ACF-IV-E-1 report) on a quarterly basis to claim Federal reimbursement for Title IV-E costs.

Federal Reimbursement Requirements

Section 474(a)(3) of the Act authorizes Federal reimbursement to a State at an enhanced 75-
percent rate for amounts expended “for the proper and efficient administration of the State plan”
if the expenditures are for certain types of training, such as the training of personnel employed or
preparing for employment by the State or local agency administering the Title IV-E program.


                                                 1
Federal regulations (45 CFR § 1356.60(b)) restate the training costs for which States receive the
enhanced 75-percent rate of Federal financial participation (FFP), and further provide that
inservice training and short-term and long-term training at educational institutions be provided
pursuant to 45 CFR §§ 235.63−235.66(a). These regulations lists with greater specificity certain
activities and costs that are eligible for the enhanced FFP rate. Section 474(a)(3)(E) of the Act
and 45 CFR § 1356.60(c) authorize reimbursement to States at a 50-percent FFP rate for all other
allowable administrative expenditures.

All training activities and costs charged to the Title IV-E program must be included in the State’s
training plan pursuant to 45 CFR § 1356.60(b)(2). 1 The State’s training plan must describe the
training activities and costs that will be charged to the Title IV-E program at the enhanced 75-
percent FFP rate.

Missouri Department of Social Services Costs Claimed for Initial Inservice Training

According to the approved State training plan, the initial inservice training for new employees at
the State agency occurs during the first three months of employment, and combines classroom
training and on-the-job training (OJT). The classroom training consists of 129 hours of child
welfare practice training (CWPT) that provides practice, skills, and systems training to new
employees. Reduced caseloads are recommended during this time.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Title IV-E training costs for salaries and benefits
claimed by the State agency for initial inservice training at the enhanced 75-percent FFP rate
from July 1, 2002, through June 30, 2006, were allowable pursuant to Federal regulations and the
approved State training plan.

Scope

From July 1, 2002, through June 30, 2006, the State agency claimed a total of $30,556,399
($22,917,299 Federal share) in Title IV-E training costs. Our audit covered the $6,383,791
($4,787,843 Federal share) that the State agency claimed at the enhanced 75-percent FFP rate for
salaries and benefits for initial inservice training. We are separately reviewing the remaining
Title IV-E training costs (cost pool, long-term training, and residential treatment centers and
foster care parent training) that the State agency claimed for Title IV-E training during the same
time period. We are addressing those costs in three separate reports.

We reviewed internal controls to the extent necessary to accomplish the audit objective.

We performed fieldwork from November 2006 to May 2008 at the State agency in Jefferson
City, Missouri.

1
 The State agency submitted a training plan to ACF for approval for each Federal fiscal year included in this review
(2002 through 2006).


                                                         2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, policy directives, State training plans, U.S.
       Department of Health and Human Services Departmental Appeals Board (DAB)
       decisions, the approved cost allocation plan, and the DCA-negotiated indirect cost rate
       agreements;

   •   interviewed officials of ACF and the State agency to gain an understanding of the State
       agency’s Title IV-E training program and its policies and procedures;

   •   reviewed the State agency’s methods for recording and allocating training costs;

   •   reviewed the ACF-IV-E-1 reports and supporting quarterly cost allocation reports and
       compared the amounts claimed with the State agency’s accounting records; and

   •   randomly selected 30 State agency personnel (under the sampling methodology described
       in Appendix B), whose initial inservice training costs were claimed by the State agency
       for Federal reimbursement at the enhanced 75-percent FFP rate, to obtain and analyze
       records supporting OJT and caseload information, in order to evaluate the allowability of
       those claimed costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $4,787,843 (Federal share) in Title IV-E training costs that the State agency claimed for
salaries and benefits for initial inservice training for the period July 1, 2002, through June 30,
2006, $741,872 (Federal share) was unallowable. The State agency overstated Title IV-E
training costs by $741,872 (Federal share) because it did not always follow the Federal
regulations and the approved State training plan. Specifically, the State agency claimed:

   •   $495,525 (Federal share) in unallowable salary and benefit costs for initial inservice
       training whose timeframes exceeded the allowable three-month period for Federal
       reimbursement pursuant to the State training plan. The $495,525 (Federal share)
       represents the difference between the enhanced 75-percent FFP rate that the State agency
       claimed and the administrative (50-percent) FFP rate permitted by Federal regulations.

   •   $141,320 (Federal share) in unallowable costs claimed related to an initial inservice
       training course that did not meet the definition of an allowable administrative activity
       pursuant to Federal regulations.


                                                 3
   •   $98,677 (Federal share) in unallowable costs claimed for initial inservice training courses
       that, contrary to Federal regulations, either were not taken or not completed by 365 (out
       of 575) employees. The $98,677 (Federal share) represents the difference between the
       enhanced 75-percent FFP rate that the State agency claimed and the administrative (50-
       percent) FFP rate permitted by Federal regulations.

   •   $6,350 (Federal share) in unallowable indirect costs that did not qualify for Federal
       reimbursement. The $6,350 (Federal share) represents the difference between the
       enhanced 75-percent FFP rate that the State agency claimed and the administrative (50-
       percent) FFP rate permitted by Federal regulations.

In addition, the State agency claimed $814,330 (Federal share) in potentially unallowable costs
related to OJT that was required for all new employees, but for which the State agency could not
provide documentation that the training occurred. Therefore, these costs may not have been
allowable for Federal reimbursement at the enhanced 75-percent FFP rate.

We accepted the remaining $3,231,641 (Federal share) in Title IV-E training costs for salaries
and benefits, including associated indirect costs.

A table summarizing these findings is attached as Appendix A.

The State agency claimed these unallowable and potentially unallowable costs because it did not
have adequate internal controls to ensure that it claimed only allowable Title IV-E training costs
pursuant to Federal regulations and the approved State training plan.

FEDERAL REQUIREMENTS

Section 474(a)(3)(E) of the Act and 45 CFR § 1356.60(c)(2)(ix) provide for a 50-percent FFP
rate for reimbursement for administrative expenditures, which includes “[a] proportionate share
of related agency overhead.” Furthermore, 45 CFR § 1356.60(c)(3) states: “Allowable
administrative costs do not include the costs of social services provided to the child, the child’s
family or foster family which provide counseling or treatment to ameliorate or remedy personal
problems, behaviors or home conditions.”

Section 474(a)(3) of the Act and 45 CFR §§ 1356.60(b)(2) and 1356.60(b)(3) specifically
provide for an enhanced 75-percent FFP rate for training costs as follows:

 (b)   Federal matching funds for State and local training for foster care and adoption assistance
       under title IV-E . . . .

       (2) All training activities and costs funded under title IV-E shall be included in the State
           agency’s training plan for title IV-B.

       (3) Short and long term training at educational institutions and inservice training may be
           provided in accordance with the provisions of Sec. Sec. 235.63 through 235.66(a) of
           this title.


                                                 4
Federal regulations (45 CFR § 235.61(a)) clarify that initial inservice training consists of “a
period of intensive, task-oriented training to prepare new employees to assume job
responsibilities.” In addition, 45 CFR § 235.62 states: “A State plan . . . must provide for a
training program for agency personnel. The training program must: (a) Include initial inservice
training for newly appointed staff . . . .”

OMB Circular A-87, Attachment A, Section C, states: “To be allowable under Federal awards,
costs must . . . . (j) Be adequately documented.”

STATE AGENCY REQUIREMENTS

The 2006 State training plan 2 states:

            The initial in-service curriculum is titled Child Welfare Practice Training (CWPT). This
            training is provided to new Children’s Division staff and new contracted agency staff.
            The initial in-service training process takes place during the first three months of
            employment and includes 129 hours of classroom training. It combines classroom
            teaching by Children’s Division staff trainers with suggested on-the-job training that is
            under the direction of the first level supervisor. Reduced caseloads are recommended
            during this time.

The State agency has an “On-The-Job (OJT) Training Manual For Staff,” which is to be
completed by the new members of the Children’s Division staff during their initial inservice
training.

UNALLOWABLE SALARIES AND BENEFITS CLAIMED

Initial Inservice Training That Exceeded the Allowable Three Months’ Duration

The State agency claimed $495,525 (Federal share) in unallowable salary and benefit costs for
initial inservice training whose timeframes exceeded the allowable three-month period for
Federal reimbursement pursuant to the State training plan. The $495,525 (Federal share)
represents the difference between the enhanced 75-percent FFP rate that the State agency
claimed and the administrative (50-percent) FFP rate permitted by Federal regulations.

The State agency claimed salary and benefits totaling $1,982,101 ($1,486,576 Federal share) for
initial inservice training whose timeframes exceeded the allowable three-month period for
Federal reimbursement pursuant to the State training plan. None of these costs claimed were




2
    Similar language appears in the other State Title IV-B training plans published during our review period.


                                                             5
allowable for Federal reimbursement at the enhanced 75-percent FFP rate because these costs
exceeded the allowable three months of salaries and benefits provided for in the State training
plan.

The State agency’s procedures for claiming Federal reimbursement at the enhanced 75-percent
FFP rate for initial inservice training did not conform to the provisions of the State training plan.
Those procedures allowed costs associated with initial inservice training that took place after the
first three months of employment to be claimed for Federal reimbursement at the enhanced 75-
percent FFP rate, contrary to the provisions of the State training plan. Specifically, the State
agency claimed Federal reimbursement at the enhanced 75-percent FFP rate for 463 (out of 789)
employees (59 percent) for initial inservice training that extended past the allowed three months.

The State agency claimed $1,982,101 salaries and fringe benefits associated with the 463
employees whose initial inservice training extended past the three months of initial inservice
training provided for in the State training plan. Because the State agency claimed these costs at
the enhanced 75-percent FFP rate of $1,486,576 rather than at the administrative (50-percent)
FFP rate of $991,051, we are questioning the difference between the enhanced rate and the
administrative rate, which totaled $495,525 (Federal share).

Training Not Permitted for Federal Reimbursement

The State agency claimed $188,426 ($141,320 Federal share) in unallowable costs for salaries
and benefits related to an initial inservice CWPT course. This course, entitled “Child Abuse and
Neglect Investigations/Family Assessments and Application of the Family Centered Philosophy
and Skills to Working with Intact Families,” did not meet the definition of an allowable
administrative activity pursuant to 45 CFR § 1356.60(c)(3), because the focus and content of the
course involved “social services provided to the child, the child’s family or foster family which
provide counseling or treatment to ameliorate or remedy personal problems, behaviors or home
conditions.” Therefore, pursuant to Federal regulations, these costs did not qualify for Federal
reimbursement.

The State agency’s procedures were to claim Federal reimbursement for all salary and fringe
benefits for employees undergoing initial inservice training. This training included a CWPT
course that did not meet the definition of allowable administrative costs pursuant to 45 CFR
§ 1356.60(c)(3). We are questioning the salary and benefit costs claimed for Federal
reimbursement that were associated with this CWPT course—costs that, pursuant to Federal
regulations, were not allowable for Federal reimbursement.

Training Not Taken or Not Completed

The State agency claimed $98,677 (Federal share) in unallowable costs for initial inservice
training course that, contrary to the provisions of the State training plan, either were not taken or
not completed by 365 (out of 575) employees. The $98,677 (Federal share) represents the
difference between the enhanced 75-percent FFP rate that the State agency claimed and the
administrative (50-percent) FFP rate permitted by Federal regulations. 3
3
    The 575 employees represent those employed full-time at least three months.


                                                           6
The State agency claimed costs totaling $394,708 ($296,031 Federal share) in salaries and fringe
benefits related to initial inservice training courses that, contrary to the provisions of the State
training plan, either were not taken or not completed by 365 (out of 575) employees. None of
these costs claimed were allowable for Federal reimbursement at the enhanced 75-percent FFP
rate because the 365 employees did not complete these courses as required by the State training
plan.

The State agency claimed costs associated with at least three months of initial inservice training
for 575 employees. However, training records for these 575 employees indicated that:

   •   219 (38 percent) did not take any CWPT training coursework and
   •   146 (25 percent) did not complete the full 129 hours of CWPT training coursework.

In total, 365 of the 575 employees (63 percent) either did not take any CWPT training course or
did not complete the 129 hours of CWPT training specified in the State training plan.

The State agency did not ensure that all employees completed the required 129 hours of CWPT
training courses as specified in the State training plan.

The State agency claimed $394,708 in salaries and fringe benefits related to CWPT training
courses that were either not taken or not completed. Because the State agency claimed these
costs at the enhanced 75-percent FFP rate of $296,031 rather than at the non-enhanced,
administrative (50-percent) FFP rate of $197,354, we are questioning the difference between the
enhanced rate and the administrative rate, which totaled $98,677 (Federal share).

Unallowable Indirect Costs

The State agency claimed $6,350 (Federal share) in unallowable agency overhead (indirect costs)
that did not qualify for Federal reimbursement. The $6,350 (Federal share) represents the
difference between the enhanced 75-percent FFP rate that the State agency claimed and the
administrative (50-percent) FFP rate permitted by Federal regulations at 45 CFR
§ 1356.60(c)(2)(ix).

The State agency incorrectly claimed indirect costs totaling $25,400 ($19,050 Federal share) at
the enhanced 75-percent FFP rate for the period July 1, 2002, through March 31, 2003. None of
these costs claimed were allowable for Federal reimbursement at the enhanced 75-percent FFP
rate because the State agency claimed these costs at the enhanced 75-percent FFP rate rather than
at the administrative (50-percent) FFP rate permitted by Federal regulations.

The State agency’s procedures did not follow Federal regulations regarding the allowability of
claiming indirect costs associated with Title IV-E training at the enhanced 75-percent FFP rate.

Specifically, the State agency included indirect costs as a percentage of direct salaries from the
Children’s Services Division foster care program based on an indirect cost rate agreement with
DCA. Because the State agency claimed these indirect costs at the enhanced 75-percent FFP rate
of $19,050 (Federal share) rather than at the non-enhanced, administrative (50-percent) FFP rate



                                                 7
of $12,700 (Federal share), we are questioning the difference between the enhanced rate and the
administrative rate, which totaled $6,350 (Federal share).

POTENTIALLY UNALLOWABLE SALARIES AND BENEFITS CLAIMED

The State agency claimed $5,239,418 ($3,929,564 Federal share) in salaries and benefits for OJT
costs that may not have been allowable at the enhanced 75-percent FFP rate because the State
agency could not provide supporting documentation that the OJT occurred.

Our review of the 30 randomly selected personnel aimed to determine whether they had
undergone OJT as mandated by Federal regulations (45 CFR § 235.61(a)) and as claimed for
Federal reimbursement by the State agency. 4 However, the State agency could not provide any
documentation supporting that the OJT had taken place as required by OMB Circular A-87,
Attachment A, Section C. Specifically, with respect to the 30 randomly sampled employees, the
State agency did not provide evidence that these personnel underwent OJT that involved a period
of intensive, task-oriented training, or that these personnel received reduced caseloads as
“recommended” in the State training plan. The State agency stated that this information is
available; however, as of the end of our fieldwork, we had not received it.

In addition, the State agency provided to us personnel records indicating that nearly half of the
30 randomly sampled employees may not have needed the OJT for which the State agency
claimed Federal reimbursement. Specifically, 12 of the 30 (40 percent) had been rehired after
having previously served as State agency employees, and 2 of the 30 (7 percent) were current
State agency employees who had not had a break in service.

The State training plan indicated that these new employees were required to take CWPT training;
however, we noted that 16 of the 30 (53 percent) did not take any CWPT training. The primary
reason why so many personnel did not take CWPT training was that these personnel were not
new employees—that is, they either had been rehired or were current employees.

The State agency did not follow Federal guidelines as well as its State training plan when
claiming OJT for Federal reimbursement.

The State agency claimed OJT totaling $5,239,418 ($3,929,564 Federal share). The Federal
share at the non-enhanced, administrative (50-percent) FFP rate totaled $2,619,709. The
difference between the enhanced rate and the administrative rate totaled $1,309,855 (Federal
share). Of the $1,309,855, we have already questioned $495,525 in enhanced payments because
the inservice training was claimed beyond the three months indicated in the State training plan.
Thus, we are setting aside, for adjudication by ACF, the difference of $814,330 (Federal share).




4
    The sampling design, methodology, and estimates appear in Appendix B.


                                                         8
RECOMMENDATIONS

We recommend that the State agency:

   •   adjust its next ACF-IV-E-1 report to reduce Federal reimbursement claimed for Title IV-
       E training by $741,872 (Federal share);

   •   work with ACF to review the $814,330 (Federal share) in enhanced payments for OJT
       costs and assess whether documentation provided by the State agency is sufficient to
       support the allowability of these claimed costs at the enhanced 75-percent FFP rate; and

   •   strengthen policies and procedures to ensure that it claims Federal reimbursement for
       Title IV-E training pursuant to Federal requirements and the approved State training plan.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our findings and with
two of our three recommendations. A summary of the State agency’s comments and our
response follows. The State agency’s comments are included in their entirety as Appendix C.

Initial Inservice Training That Exceeded the Allowable Three Months’ Duration

State Agency Comments

The State agency said that we misread the State training plan in developing our finding that the
State agency claimed $495,525 (Federal share) in unallowable salary and benefit costs for initial
inservice training whose timeframes exceeded the allowable three-month period. After quoting
the State training plan that “[t]he initial in-service training process takes place during the first
three months of employment,” the State agency added that this guidance referred to “the
beginning of initial in-service training—the three to four months when new employees were
attending CWPT during some weeks, alternating with OJT at their home offices during other
weeks.”

Office of Inspector General Response

Federal regulations (45 CFR § 1356.60(b)(2)) specify that “All training activities and costs
funded under title IV-E shall be included in the State agency’s training plan for title IV-B.” In
turn, the State training plan mandates that “[t]he initial in-service training process takes place
during the first three months of employment . . . .” (Emphasis added.) There is no language in
the State training plans that identifies any additional training activities, costs, or timeframes
beyond the specified three months’ duration for which the State agency could allowably claim
costs for initial inservice training at the enhanced 75-percent FFP rate pursuant to Federal
regulations.




                                                 9
Training Not Permitted for Federal Reimbursement

State Agency Comments

The State agency did not agree with our finding regarding the $141,320 (Federal share) in
unallowable costs related to an initial inservice training course that did not meet the definition of
an allowable administrative activity pursuant to Federal regulations. The CWPT course was
entitled “Child Abuse and Neglect Investigations/Family Assessments and Application of Family
Centered Philosophy and Skills to Working with Intact Families.” The State agency believed
that “[t]here is no basis for criticizing a single course in isolation, since the entire initial in-
service training program is directed toward and directly relevant to Title IV-E.” Further, the
State agency indicated that the “. . . the State’s training program takes an integrated approach to
training the ‘whole worker’ in how to deal with the entire array” of situations employees could
encounter. In addition, the State agency cited ACF’s “Child Welfare Policy Manual, § 8.1H,
Q&A #8” as evidence that this course was allowable.

Office of Inspector General Response

The CWPT course did not meet the definition of an allowable administrative activity pursuant to
Federal regulations (45 CFR § 1356.60(c)(3)) and thus, did not qualify for Federal
reimbursement. With respect to the State agency’s assertion that we should have taken an
integrated approach, the State training plans listed each individual CWPT course including a
description of that course, thereby allowing us to separate the courses that contained allowable
training topics from those that contained unallowable training topics. As stated earlier, we
questioned only the salary and benefit costs claimed for Federal reimbursement that were
associated with this particular CWPT course.

Regarding the State agency’s citation of the “Child Welfare Policy Manual, § 8.1H, Q&A #8,”
this policy manual contained interpretations of relevant Federal requirements, not of State
training plans. Second, these interpretations were issued on April 10, 2007—after the end of our
audit period. Further, even if this section of the Child Welfare Policy Manual were in effect
during our audit period, it states that training “related to how to conduct an investigation of child
abuse and neglect” (a subject that, according to our review of the State training plans, was a
component of the CWPT course in question) is not an allowable administrative cost and is thus
not eligible for Federal reimbursement.

Training Not Taken or Not Completed

State Agency Comments

The State agency disagreed with our finding regarding the $98,677 (Federal share) in
unallowable costs for initial inservice training courses that either were not taken or not
completed by 365 (out of 575) employees. The State agency noted that it “. . . has
reviewed its records and believes that they clearly show that virtually all of the
individuals identified in the audit did, in fact, complete the entire CWPT training course.”
However, the State agency later said that “more experienced workers, such as those



                                                 10
returning to the agency after an extended period away, or those changing positions . . .
received only the portions of CWPT (if any) or OJT that were appropriate to their needs
and circumstances.” The State agency added that the costs associated with employees
who had not completed CWPT sessions should not have been disallowed, because these
workers were still performing OJT, a permissible form of Title IV-E training. The State
agency cited ACF’s “Child Welfare Policy Manual, Q&A ## 14–15,” to support this
latter statement.

Office of Inspector General Response

Although the State agency indicated that it “. . . has reviewed its records and believes that they
clearly show that virtually all of the individuals identified in the audit did, in fact, complete the
entire CWPT training course,” it did not provide these records to us, either during our fieldwork
or thereafter. Moreover, the State agency’s written comments appear self-contradictory by
indicating that some of the more experienced workers may have either received only a portion of
the CWPT or none at all.

The State agency also disagreed with this finding because, it said, those workers who did not
complete any or all of the CWPT sessions would be completing OJT instead. The State agency
cited the “Child Welfare Policy Manual, Q&A ##14-15” as support for the permissibility of OJT
in lieu of CWPT training. We disagree with this line of reasoning on several levels. First, this
policy manual contained interpretations of relevant Federal requirements, not of State training
plans. Second, these interpretations were issued on April 10, 2007—after the end of our audit
period. Further, even if this section of the Child Welfare Policy Manual were in effect during
our audit period, it states that “[t]he training activities and costs must be included in the State
agency’s training plan.” The State training plan, in turn, specifies that CWPT “. . . includes 129
hours of classroom training.” The State training plan does not make provisions for employees to
complete OJT in lieu of the 129 hours of classroom training.

Unallowable Indirect Costs

State Agency Comments

The State agency did not agree with our finding that the $6,350 (Federal share) in indirect costs
that the State agency claimed did not qualify for reimbursement at the enhanced 75-percent FFP
rate. Specifically, the State agency said these indirect costs were costs of training as they were
computed by applying an indirect cost rate to salaries directly allocated to training. Because the
costs were related to training, they were, according to the State agency, eligible for
reimbursement at the enhanced 75-percent FFP rate. The State agency also stated that the
Federal regulation we cited in connection with this finding (45 CFR § 1356.60(c)(2)(ix)) does
not pertain to overhead associated with training costs; according to the State agency,
“. . . overhead associated with training costs . . . are covered in subsection (b)” (that is, 45 CFR
§ 1356.60(b)).




                                                 11
Office of Inspector General Response

Federal regulation (45 CFR § 1356.60(c)(2)) states that “allowable administrative costs
necessary for the administration of the foster care program [include] . . . a proportionate share of
related agency overhead.” The State agency’s indirect costs were specifically a proportionate
share of related agency overhead as negotiated with DCA and were thus eligible for
reimbursement at the administrative 50-percent FFP rate rather than at the enhanced 75-percent
FFP rate. Moreover, the regulation cited as applicable by the State agency (45 CFR §
1356.60(b)) itemizes, in its subparagraphs as well as its reference to § § 235.63—235.66(a), the
types of training costs that qualify for reimbursement at the enhanced 75-percent rate. Agency
overhead (indirect costs) are not one of the costs itemized in the regulation that the State agency
cites; in fact, 45 CFR § 1356.60(c)(2) is the applicable regulation as stated in our finding.

Potentially Unallowable Salaries and Benefits Claimed

State Agency Comments

The State agency did not agree with our finding that it claimed $814,330 (Federal share) in
potentially unallowable costs related to salaries and benefits for OJT that was required for all
new employees, but for which the State agency could not provide documentation that the training
occurred. Although the State agency disagreed with the finding, it agreed with the associated
recommendation. The State agency said that such a review in conjunction with ACF would
show “. . . that its OJT was entirely proper.” Further, the State indicated that it provided the OJT
Manual for Staff to the auditors.

Alluding to those randomly selected employees who had been rehired after having previously
served as State agency employees, the State agency stated that it “. . . appropriately provided
OJT to workers who had been away from the agency for extended periods and therefore needed
training. . . .” To support this assertion, the State agency cited “ACF, Child Welfare Policy
Manual, Q&A #15” as evidence that ACF recognized that initial inservice training was
appropriate for workers who, though they may have had some experience in the State agency,
were starting to work in positions that were effectively new to them. The State agency also
indicated that it had provided evidence to the DAB that its OJT program involved activities such
as shadowing veteran workers and observing court activities, as well as formal classroom
program in many counties.

Office of Inspector General Response

The State agency disagreed with our finding regarding these potentially unallowable costs but
agreed with our associated recommendation that it work with ACF to adjudicate this issue.
Despite the State training plan statement that the social workers have a reduced caseload during
the initial inservice training, the State agency provided us no evidence of reduced caseloads for
any of our randomly selected State employees. Furthermore, the only evidence that the State
agency provided that OJT occurred was, as the State agency noted in its written comments, an
“OJT Manual for Staff” which, as we noted, had not been completed by any of the randomly




                                                 12
selected State employees. We do not believe that an OJT manual that had not been completed by
any of the selected employees constituted sufficient evidence to demonstrate that any OJT had
occurred.

The State agency cited the “Child Welfare Policy Manual, Q&A #15” as evidence of ACF’s
guidance supporting the State agency’s decision to provide OJT to rehired workers “who had
been away from the agency for extended periods and therefore needed training.” However, as
stated earlier, the interpretation in this policy manual was of relevant Federal requirements, not
of State training plans. Second, these interpretations were issued on April 10, 2007—after the
end of our audit period. Further, even if this section of the Child Welfare Policy Manual were in
effect during our audit period, it states that “[t]he training activities and costs must be included in
the State agency’s training plan.” The State training plan, in turn, specifies that staff members
must have 129 hours of CWPT and have reduced caseloads.

Accordingly, the concerns about inadequate documentation, as articulated in our draft report,
remain valid. In recognition of this continuing lack of adequate documentation, we maintain that
the $814,330 (Federal share) be set aside for ACF adjudication.




                                                  13
APPENDIXES
                                                                            APPENDIX A


                              SUMMARY OF AUDIT RESULTS

                           Title IV-E Training Costs Claimed for
                     Salaries and Benefits for Initial Inservice Training
                        During July 1, 2002, through June 30, 2006

                                         Federal Share

                            TOTAL            AMOUNT           AMOUNT      AMOUNT
                           CLAIMED         QUESTIONED         SET ASIDE ALLOWABLE

Salaries and Benefits      $5,542,786
 Less Long-Term Training      773,993
 Initial Inservice          4,768,793           $735,522         $814,330   $3,218,941

Indirect Costs                  19,050             6,350                       12,700

TOTALS                     $4,787,843           $741,872         $814,330   $3,231,641
                                                                                                 APPENDIX B


                 SAMPLING DESIGN, METHODOLOGY, AND ESTIMATES

OBJECTIVE

Our objective was to determine whether the Title IV-E training costs for salaries and benefits
claimed by the Missouri Department of Social Services (State agency) for initial inservice
training at the enhanced 75-percent Federal financial participation rate from July 1, 2002,
through June 30, 2006, were allowable pursuant to Federal regulations and the approved State
training plan.

POPULATION

Our population consisted of 776 employees for whom the State agency claimed reimbursement
during our review period for at least one month of salary and benefits for the initial inservice
training from July 1, 2002, through June 30, 2006. 1

SAMPLE DESIGN

The audit used a simple random sample. We used the Office of Inspector General, Office of
Audit Services (OAS), statistical software RAT-STATS to generate the random numbers used to
select the sample. The audit period covers the State agency’s fiscal years 2003 through 2006
(July 1, 2002, through June 30, 2006).

SAMPLE SIZE

The random sample consisted of 30 employees.

STATISTICAL ESTIMATES

Because the State agency has not provided evidence of either on-the-job training (OJT) or
reduced caseloads for any of the sampled employees, we considered the entire sample to be in
error. As a result, we are setting aside the entire amount ($814,330 (Federal share)) of costs
related to OJT for which the State agency received reimbursement for the initial inservice
training charged to Title IV-E, excluding the 129 hours of actual classroom training performed
during the first three months.




1
In total, we had 788 employees whose initial inservice training costs were charged to Title IV-E training. However,
we excluded 12 employees considered duplicates from the population, and separately reviewed these employees.
APPENDIX C
  Page 1 of 8
APPENDIX C
  Page 2 of 8
APPENDIX C
  Page 3 of 8
APPENDIX C
  Page 4 of 8
APPENDIX C
  Page 5 of 8
APPENDIX C
  Page 6 of 8
APPENDIX C
  Page 7 of 8
APPENDIX C
  Page 8 of 8
